OFFICE OF INSPECTOR GENERAL


AUDIT OF SELECTED
PERFORMANCE-BASED TASK
ORDERS FOR INFORMATION
TECHNOLOGY SERVICES
AUDIT REPORT NO. A-000-08-005-P
MAY 15, 2008




WASHINGTON, DC
Office of Inspector General


May 15, 2008

MEMORANDUM

TO:                  A-M/CIO, Phil Heneghan
                     M/OAA/OD, Maureen A. Shauket

FROM:                Director, IG/A/ITSA, Melinda G. Dempsey /s/

SUBJECT:             Audit of Selected Performance-Based Task Orders for Information Technology
                     Services (Report No. A-000-08-005-P)

This memorandum transmits the Office of Inspector General’s final report on the subject audit. In
finalizing the report, we considered your comments on our draft report and included those
comments in their entirety in Appendix II of this report.

This report contains two recommendations to help USAID improve its use of performance-based
task orders for information technology services. Based on your response to our draft report, we
have reached management decisions on recommendations nos. 1 and 2. Please notify the Bureau
for Management’s Audit, Performance and Compliance Division when final actions are completed.

I appreciate the cooperation and courtesies extended to my staff during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS
Summary of Results ................................................................................................. 1
Background .............................................................................................................. 2
Audit Objective.......................................................................................................... 4
Audit Findings ........................................................................................................... 5
Did USAID establish performance-based task
orders for selected information technology services
in accordance with Federal Acquisition Regulation requirements?................................ 5

    Federal Acquisition Regulation Requirements Not Fully Met ...................................... 5

Evaluation of Management Comments ................................................................. 12
Appendix I – Scope and Methodology .................................................................. 13
Appendix II – Management Comments ................................................................. 15
SUMMARY OF RESULTS
Performance-based acquisition is a technique for structuring all aspects of an acquisition
around the purpose and outcome desired, as opposed to the process by which the work is
to be performed. Performance-based acquisition has many benefits, including increased
likelihood of meeting mission needs and decreased performance risk (page 2).

The Office of Inspector General, Information Technology and Special Audits Division, in
Washington, DC conducted this audit to determine whether USAID established
performance-based task orders for selected information technology services in accordance
with Federal Acquisition Regulation (FAR) requirements (page 4).

The audit found that, for the task orders reviewed, USAID incorporated some but not all
of the FAR requirements for performance-based contracting. Specifically, USAID did not
always (1) include meaningful performance standards to the maximum extent
practicable, (2) include monetary incentives to encourage contractors to achieve
results or discourage contractors from not achieving results, and (3) follow a plan to
determine whether the services received met requirements. As a result, USAID may
have, among other things, missed opportunities to enhance its operations through its
use of performance-based service contracting (page 5).

This report makes two recommendations to help USAID improve its use of performance-
based task orders for information technology services. First, it recommends that USAID
establish a process to review the performance work statements for information
technology services before award to ensure that all FAR elements have been included to
the maximum extent practicable. Second, it recommends that USAID incorporate
cognizant technical officer duties and responsibilities into performance work objectives for
its cognizant technical officers (page 11).

In response to the draft report, USAID agreed with the audit findings and described
planned actions to address the recommendations, including target dates for when final
actions will be completed. Based on management comments and the establishment of
target dates, management decisions have been reached for recommendation nos. 1 and
2. The Agency’s comments are included in their entirety in appendix II (page 15).




                                                                                          1
BACKGROUND
Performance-based acquisition is a technique for structuring all aspects of an acquisition
around the purpose and outcome desired, as opposed to the process by which the work is
to be performed. According to the Office of Management and Budget’s Office of Federal
Procurement Policy, performance-based acquisition for services has been articulated in
regulation, guidance, and policy for more than two decades. Performance-based
acquisition has many benefits, including the following:

•      Increased likelihood of meeting mission needs

•      Focus on intended results, not process

•      Better value and enhanced performance

•      Decreased risk of not meeting performance requirements

•      Shared incentives to permit innovation and cost effectiveness

USAID’s Office of the Chief Information Officer, Contract and Management Services
Division (the Division) is responsible for the acquisition of Federal information technology
(IT) resources, commodities, and services for the Agency. Specifically, the Division
(among other things) manages IT contracts that outsource resources to support USAID
projects, provides acquisition-related advice and assistance to project teams,
coordinates the Federal IT resources program for the Agency, and monitors the
performance of contracts, including quality assurance surveillance programs. 1 In
addition, the Division communicates with and provides liaison services between the chief
information officer and the Office of Acquisition and Assistance (which oversees the
procurement function of USAID), and other Agency IT end users.

In recent months, the Division experienced a complete turnover in contracting officers.
Specifically:

•      One of the two original contracting officers went to another agency in October
       2007 (prior to the commencement of this audit).

•      The second of the original two contracting officers retired from USAID in January
       2008, shortly after the commencement of this audit.

•      Two new contracting officers began working in the Division in August 2007.

The Division has awarded to several organizations blanket purchase agreements for IT
services. Such services may include the following (among other things):

•      Maintaining the current functionalities, system performance, and availability for IT
       systems
1
 A program for ensuring that goods or services received meet requirements in the statement of
work.


                                                                                           2
•      Implementing new applications as efficiently and promptly as possible

•      Continuously improving efficiency in software maintenance and operations, by
       establishing and tracking metrics for software maintenance and operation
       support

•      Providing disciplined maintenance of software systems.

The Federal Acquisition Regulation (FAR) is the primary regulation that all Federal
Executive agencies should use when acquiring supplies and services with appropriated
funds. According to Subpart 16.5, “Indefinite-Delivery Contracts,” section 16.505(a)(3),
performance-based acquisitions must be used to the maximum extent possible if the
contract or order is for services. In addition, FAR Subpart 37.6, “Performance-Based
Acquisition,” prescribes policies and procedures for acquiring services using performance-
based acquisition methods. According to that subpart, performance-based contracts for
services must include the following:

•      A performance work statement that (to the maximum extent practicable)
       1.     Describes the work in terms of results required rather than the methods of
              performance of the work
       2.     Enables assessment of work performance against measurable
              performance standards
       3.     Relies on the use of measurable performance standards
       4.     Relies on financial incentives

•      A method of assessing contractor performance against performance standards

•      Performance incentives (where appropriate) that correspond to the performance
       standards in the contract

•      Quality assurance surveillance plans, as prescribed by Subpart 46.4,
       “Government Contract Quality Assurance”

Performance-based acquisition has not been fully implemented in the Federal
Government, and agencies have faced a number of issues when using performance-
based acquisitions. Specifically, Section 1423 of the Services Acquisition Reform Act of
2003 authorized the creation of an acquisition advisory panel (the Panel). The Panel
was tasked to (among other things) review laws, regulations, and Governmentwide
acquisition   polices   regarding     performance-based      contracting    and   make
recommendations for improvements. In January 2007, the Panel reported to the Office
of Federal Procurement Policy that, among other things, the top 10 contracting agencies
had problems identifying and aligning performance measures and contract incentives to
ensure that desired outcomes were achieved. The Panel recommended more guidance
to assist agencies in the efficient and appropriate application of performance-based
acquisition.




                                                                                        3
In December 2007, the U.S. Government Accountability Office (GAO) issued a report on
the Panel’s recommendations. 2 In that report, GAO reported that Office of Federal
Procurement Policy plans to implement most of the Panel’s recommendations. GAO
also noted that the Office of Federal Procurement Policy would rely on chief acquisition
officers and senior procurement executives within Federal agencies to help implement
the recommendations.


AUDIT OBJECTIVE
The Office of Inspector General, Information Technology and Special Audits Division,
conducted this audit because the Office of Management and Budget (OMB) has
encouraged greater use of performance-based acquisition. Specifically, OMB set a goal
for fiscal year 2006 to issue performance-based contracts for 40 percent or more of all
eligible service acquisitions.    Give OMB’s goal of encouraging greater use of
performance-based task acquisitions, this audit was performed to answer the following
question.

       Did USAID establish performance-based task orders for selected
       information technology services in accordance with Federal Acquisition
       Regulation requirements?

Appendix I contains details of the audit’s scope and methodology.




2
 “Federal Acquisition: Oversight Plan Needed to Help Implement Acquisition Advisory Panel
Recommendations” (Report No. GAO-08-160, December 2007)


                                                                                            4
AUDIT FINDINGS
Did USAID establish performance-based task orders for selected
information technology services in accordance with Federal
Acquisition Regulation requirements?
USAID established performance-based task orders for selected information technology
(IT) services contracts in accordance with Federal Acquisition Regulation (FAR)
requirements, although some requirements needed to be fully incorporated to improve
performance-based task orders for IT services.

Specifically, for selected IT task orders, USAID’s performance work statements included
the following minimum requirements: (1) purpose, (2) scope or mission, (3) period and
place of performance, (4) background, and (5) any operating constraints. In addition, the
task orders generally described the work in terms of the required results rather than
either how the work is to be accomplished or the number of hours to be provided.

Nonetheless, USAID did not always incorporate required aspects of performance-based
task orders. Specifically, USAID did not always (1) incorporate meaningful performance
standards to the maximum extent practicable, (2) use quality assurance surveillance
plans, and (3) incorporate performance incentives into the task orders to the maximum
extent practicable. The following section discusses these deficiencies in more detail.


FAR Requirements
Not Fully Met

  Summary: Contrary to FAR requirements, USAID did not always (1) incorporate
  meaningful performance standards to the maximum extent practicable, (2) use
  quality assurance surveillance plans, and (3) incorporate performance incentives
  into the task orders to the maximum extent practicable. Contracting personnel
  provided a number of possible contributing factors for the first two problems.
  Regarding meaningful performance standards, contracting officials believed that
  the cognizant technical officers (CTOs) were not being held accountable for
  reviewing available information to ensure that CTO duties and responsibilities were
  fulfilled. Regarding the use of quality assurance surveillance plans, contract
  surveillance was not always a top priority for contracting officers and CTOs. For
  the third problem, CTOs were not aware of the need to follow quality assurance
  surveillance plans. As a result of these problems, USAID may have, among other
  things, missed opportunities to enhance its operations through its use of
  performance-based service contracting.



Meaningful Performance Standards Not Always Incorporated – According to FAR
Subpart 1.6, “Career Development, Contracting Authority, and Responsibilities,”
contracting officers’ responsibilities include (1) performing all necessary actions for
effective contracting and (2) protecting the Government in its contractual relationships.


                                                                                        5
In addition, according to FAR Subpart 37.6, “Performance-Based Acquisition,” agencies
should, to the maximum extent practicable, rely on the use of measurable performance
standards (in terms of quality, timeliness, quantity, and so on) in preparing performance
work statements. However, of the 12 task orders reviewed,

•      Only one had meaningful performance standards that directly tied to the
       performance work statement.

•      One did not contain performance standards.

•      Ten identified only generic quality standards, which were provided as examples
       in the guidelines for preparing task orders and, thus, were not specific to the
       performance work statement. The generic quality standards were as follows:

       -      Deliverables are written clearly and concisely, providing USAID
              stakeholders a clear understanding of all deliverables.
       -      Final documentation to be in Microsoft Suite: Word 2000 and Excel 2000,
              or current USAID version.
       -      Final documentation must be spellchecked, grammar checked, and
              accepted by the Government.
       -      100 percent of delivery dates specified by the CTO or work plan are met
              or exceeded.

Yet, for 7 of the 10 task orders with generic quality standards, the CTOs responsible for
oversight were not using the performance standards. For two of the task orders, the
CTO stated that he used the performance standards. However, that CTO did not
document that the measures were actually used. (For the tenth task order, this
determination could not be made because the CTO was not available.)

Moreover, USAID did not identify clear performance requirements for 3 of the 10 task
orders reviewed that had only generic quality standards. The tasks were complex and
various requirements were not specifically defined, as described below:

•      The first was for program management and advisory support for joint USAID and
       Department of State business processes. One example of a broad task was for
       the contractor to provide the following:

              …just-in-time Functional and Technical expertise, periodic
              assessment and management support for key program activities
              including but not limited to: requirements determinations, business
              process, joint concept developments, data migration, statutory
              compliance, integrated network, and system architectures, test
              planning, interoperability planning, infrastructure support,
              information assurances, certification and accreditation, interface
              development support, Help Desk strategy and concept of
              operations, reporting, and data warehouse…

       In this instance, the language “including but not limited to” implies that the
       contractor may be given additional tasks that are not explicitly stated in the task
       order, thus making it difficult to develop meaningful performance measures.



                                                                                        6
•      The second was for information technology (IT) program management support to
       the chief information officer. Although the performance work statement identifies
       many specific tasks, according to responsible Agency officials, most of the work
       was performed under the following very broad task:

               The Contractor shall coordinate and implement the Government-
               approved PMP [program management plan]. The Contractor shall
               provide the communications and general program management
               support for day-to-day operations in accordance with current
               USAID Program Management Office (PMO) project management
               practices…

       The task order further states that work activities shall include but not be limited to
       a number of activities, from providing management and technical advisory
       services to participating in various meetings. Again, this example implies that the
       contractor may be given additional tasks that are not explicitly stated in the task
       order, thus making it difficult to develop meaningful performance measures.

•      The third was for program management and integration support services for
       information and communication technology to overseas missions. One example
       of a broad task is for the contractor to

               Identify, facilitate, construct and/or implement development
               alliance opportunities with non-traditional private sector partners,
               NGOs [nongovernmental organizations], and USAID Missions in
               order to achieve greater impact on development goals.

       In this example, it would be difficult to measure whether the contractor achieved
       a greater impact on development goals, as this is a broad performance
       requirement and no performance measures were established.

Responsible Agency officials believed that the three task orders discussed above should
not have been performance-based acquisitions. Further, to meet their needs, one CTO
felt that CTOs needed a strong role in specifying how the work should be done as well
as constant interaction with the contractor. USAID needs better criteria to help
determine whether task orders such as these should be performance-based.

This audit could not determine the root cause of the above problems because the two
contracting officers who awarded the task orders are no longer with USAID. However,
one of the original contracting officers 3 believed that it was the CTOs’ responsibility to
ensure that meaningful performance measures were included in the performance work
statements. As a practical matter, contracting officers do not have sufficient technical
expertise or time to ensure the successful administration and completion of all aspects of
each award. Therefore, they rely on CTOs for various functions, including monitoring
and evaluating contractor performance. USAID’s contracting officers use a CTO

3
  Over the past several months, the Office of the Chief Information Officer’s Contract
Management Services Division experienced a complete turnover in its contracting staff.
Therefore, only one of the original contracting officers was available for discussions at the
beginning of the audit.


                                                                                           7
designation letter to communicate what authorities and responsibilities have been
delegated to the CTO. The letters reviewed generally instruct CTOs to verify that the
contractor’s performance conforms to the technical requirements and quality standards
agreed to in the terms and conditions of the contract.

Contracting officials in USAID’s Office of Acquisition and Assistance did not believe that
additional information was needed to implement performance-based acquisitions. They
felt that the FAR, USAID’s Automated Directives System, and other internal guidance
give contracting officers and CTOs the information they need to properly implement
performance-based task orders. However, contracting officials believed that the
underlying problem was that the CTOs were not being held accountable for diligently
reviewing all of the information available to ensure that they fulfilled their CTO duties and
responsibilities.

Based on documentation provided, CTO duties and responsibilities for monitoring and
evaluating contractor performance were not incorporated into performance work
objectives, including statements of performance expectations and results to be achieved.
Specifically, CTOs for: 4

•      Six of the task orders reviewed did not have their CTO duties and responsibilities
       discussed in the work objectives against which they were evaluated.

•      Two task orders had a work objective that stated, “[m]ay serve as contract or task
       order CTO.” However, the work objectives did not contain statements of
       performance expectations and results to be achieved.

•      Three task orders had work objectives that discussed responsibilities from a
       programmatic and financial standpoint. However, the work objectives did not
       discuss monitoring and evaluating the contractor’s performance.

Similarly, a recent Office of Inspector General audit 5 found that performance evaluations
for the USAID bureaus and office reviewed did not address CTO duties and
responsibilities. The audit recommended that the bureaus and office reviewed
incorporate CTO duties and responsibilities into the work objectives. (However, that
recommendation was not addressed to the Office of the Chief Information Officer
because that office was not included in the audit's scope.)

One of the newly hired contracting officers believed that USAID had not yet fully
embraced the concept and potential of performance-based acquisition. According to
that contracting officer, it is difficult for an agency to assemble a team of people who
have the knowledge, insight, and experience to benefit from performance-based
acquisition.

Because USAID did not always identify and use meaningful performance standards for
the task orders reviewed, it may have difficulty holding its contractors accountable for
poor performance. Further, without assessing work performance against measurable

4
 One CTO was no longer with USAID and, thus, was not contacted.
5
  Followup Audit on Recommendations Included in the Audit of Selected USAID Bureaus’
Training, Use and Accountability of Cognizant Technical Officers Audit Report No. 9-000-03-009-
P, dated September 22, 2003 (Audit Report No. 9-000-08-004-P, January 24, 2008).


                                                                                             8
quality standards, USAID is at risk of being unable to identify insufficient contractor
performance. Finally, USAID may have missed opportunities to enhance its operations
through its use of performance-based service contracting.

Quality Assurance Surveillance Plans Not Used – The purpose of a quality
assurance plan is to provide a systematic method to evaluate services the contractor is
required to furnish. According to FAR subpart 46.4, “Government Contract Quality
Assurance,” quality assurance surveillance plans should be prepared in conjunction with
the statement of work. The plans should specify (1) all work requiring surveillance and
(2) the method of surveillance.

According to the Office of Federal Procurement Policy’s “A Guide for Writing and
Administering Performance Statements of Work for Service Contracts,“ quality
assurance is the actions taken by the Government to determine whether goods or
services received meet requirements in the statement of work. A surveillance plan
documents those actions and contains sampling guides, checklists, and decision tables.

Finally, according to USAID’s guidelines for preparing task orders against the blanket
purchasing agreements

       The CTO is responsible for developing the Quality Assurance
       Surveillance Plan (QASP). The QASP provides a systematic method to
       evaluate services the contractor is required to furnish

Although the quality assurance surveillance plans met FAR requirements, for 10 of the
12 task orders reviewed, USAID did not follow the plans to ensure strong oversight of
the contractors. The CTOs did not document that the contractors’ performance was
monitored in a methodological way to ensure that deliverables met acceptable levels of
quality and quantity to achieve the overall desired outcome of the task order. For
example, the CTOs could not provide surveillance reports or other evidence showing
which deliverables (1) were or were not received on time and (2) met or did not meet
established standards. Instead, the CTOs for each task order asserted that they
monitored the contractors’ performance by conducting meetings, reviewing monthly
progress reports, and reviewing and approving deliverables, and they provided some
evidence of monitoring performance.

USAID contracting officials attributed the insufficient surveillance to a number of factors.
They stated that (1) contract surveillance was not always a top priority for contracting
officers and CTOs, (2) contracting personnel did not have sufficient hours during their
normal workday to get the job done, a factor which they stated may be influenced by
staff shortages and turnover, and (3) contracting personnel did not have a good
understanding of performance-based service contracting and how to rely on the use of
measurable performance standards.

Discussions revealed that CTOs for six of the task orders were not aware that they
needed to follow a quality assurance surveillance plan. (For a seventh task order, the
original CTO prepared a detailed quality assurance surveillance plan, but the successor
CTO was not aware of it and therefore did not follow it.) Moreover, some CTOs
indicated that they were not clear on their responsibilities.




                                                                                          9
As discussed in the preceding section, contracting officials in USAID’s Office of
Acquisition and Assistance did not believe that additional information was needed to aid
in implementing performance-based acquisitions. Contracting officials believed that the
underlying problem was that CTOs were not being held accountable for diligently
reviewing the information that is available. Based on documentation provided, CTO
duties and responsibilities for monitoring and evaluating contractor performance were
not incorporated into performance work objectives, including statements of performance
expectations and results to be achieved.

For one task order, a detailed, rigorous process was used to assess the contractor’s
performance against measurable performance standards. Moreover, those standards
corresponded to the tasks contained in the performance work statement. The CTO
believed that this process was an excellent way to measure the contractor’s
performance. Because the contractor did not meet performance measures, the
contractor’s billings were reduced by more than $79,000.

Proper surveillance has the potential to identify poor contractor performance, mitigate
task order problems, and save costs to the Government. Inconsistent surveillance
poses the risk that USAID will be unable to identify and correct poor contractor
performance in a timely manner and may pay contractors more than the value of the
services they performed.

Performance Incentives Not Incorporated Into Task Orders to the Maximum Extent
Possible – According to FAR Subpart 37.6, “Performance-Based Acquisition,”
performance-based contracts for services must include performance incentives where
appropriate.    The performance incentives must correspond to the performance
standards set forth in the contract.

In addition, FAR Subpart 16.4, “Incentive Contracts,” states that

       To the maximum extent practicable, positive and negative performance
       incentives shall be considered in connection with service contracts for
       performance of objectively measurable tasks when quality of performance
       is critical and incentives are likely to motivate the contractor.

However, USAID established effective performance incentives for only 1 of the 12 task
orders reviewed. The remaining 11 task orders did not include performance incentives.
Instead, the task orders included only a disincentive—placing a contract discrepancy
report into the official contract file when (1) the contractor had more than one valid
written complaint during the life of the task order and (2) the contractor’s performance
fell below the acceptable quality range for the task order. Contracting officials also
mentioned that they could choose not to exercise options to extend a contractor’s period
of performance when performance is poor, although this was not included in the task
orders as a disincentive.

Moreover, the CTOs did not monitor the contractors’ performance in a methodological
way to ensure that deliverables met acceptable levels of quality and quantity. As a
result, the CTOs could not ensure that contractors would be held accountable, as
discussed above.




                                                                                     10
According to USAID contracting officials, monetary incentives were not included in the
tasks primarily because funds were not available for such incentives. Nonetheless,
although this audit could not determine why more rigorous performance incentives were
not used, other disincentives could have been built into the task orders, such as
withholding a percentage of payment until acceptance of the final deliverables.

As a result of not including effective performance incentives in the task orders, USAID
did not take advantage of opportunities to discourage and punish poor performance, and
thus possibly save money when acceptable quality and quantity levels were not met.
Nor did USAID provide incentives for contractors to find better, more cost-effective ways
of completing tasks.

Because of the issues addressed above, this audit makes the following
recommendations to help USAID improve its implementation of performance-based task
orders for IT services.

       Recommendation No. 1: We recommend that USAID’s chief information
       officer, in collaboration with the director, Office of Acquisition and
       Assistance, establish a process to review the performance work
       statements for information technology services before award to ensure
       that all elements have been included in accordance with Federal
       Acquisition Regulation Subpart 37.6. At a minimum, performance work
       statements must be reviewed to ensure to the maximum extent
       practicable (a) performance requirements are clearly defined;
       (b) performance measures for quality, quantity, and/or timeliness tie to
       key performance requirements; and (c) incentives and disincentives are
       developed and tie to performance measures.

       Recommendation No. 2: We recommend that USAID’s chief information
       officer incorporate cognizant technical officer duties and responsibilities
       for monitoring and evaluating contractor performance into performance
       work objectives, including statements of performance expectations and
       results to be achieved, for its cognizant technical officers.




                                                                                      11
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID agreed with the audit findings and described
planned actions to address the recommendations, including target dates for when final
actions will be completed. Based on management comments and the establishment of
target dates, management decisions have been reached for recommendation nos. 1 and
2. The Agency’s comments are included in their entirety in appendix II.




                                                                                  12
                                                                                APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General's Information Technology and Special Audits Division in
Washington, DC, conducted this audit in accordance with generally accepted
Government auditing standards. The purpose of this audit was to determine whether
USAID established performance-based task orders for selected information technology
services in accordance with Federal Acquisition Regulation requirements.

From a universe of task orders totaling $91 million 6 that appeared to be for information
technology services, we selected and reviewed a judgmental sample of 12 task orders
totaling more than $75 million. 7 This amounted to approximately 82 percent of the
universe dollars. The following table provides details on the task orders reviewed.

                                Task Orders Reviewed
                      No.     Task Order No.              Amount
                      1     IRM-E-01-06-00019         $     6,417,553
                      2     IRM-E-09-05-00010               3,482,341
                      3     IRM-E-01-05-00020               3,356,186
                      4     IRM-E-08-05-00010               3,102,456
                      5     IRM-E-03-05-00022               2,593,450
                      6     IRM-E-07-05-00007               2,106,175
                      7     IRM-E-01-06-00015              38,744,830
                      8     IRM-E-05-06-00012               6,000,000
                      9     IRM-E-05-05-00007               3,466,472
                      10    IRM-E-04-05-00021               2,994,469
                      11    IRM-E-12-06-00012               1,741,990
                      12    IRM-E-13-06-00012               1,019,897
                                  TOTAL                   $75,025,819

This audit was conducted in USAID’s (1) Office of the Chief Information Officer; (2) Office of
Acquisition Assistance; and (3) Bureau for Economic Growth, Agriculture and Trade in
Washington, DC.

We performed limited work regarding USAID’s internal controls over training its cognizant
technical officers, which was determined to be a potential area of weak internal controls
related to the audit objectives. Specifically, we (1) conducted inquiries to assess whether
the cognizant technical officers were trained and (2) obtained and reviewed CTO
designation letters. We also considered the results of the following audits and reviews, as
related to the audit objectives:

•         USAID OIG’s Audit of USAID’s Training, Use and Accountability of Cognizant
          Technical Officers (Report No. 9-000-04-003-P, March 31, 2004).


6
    Unaudited.
7
    Also unaudited.


                                                                                           13
•         U.S. Government Accountability Office’s “Federal Acquisition: Oversight Plan
          Needed to Help Implement Acquisition Advisory Panel Recommendations” (Report
          No. 08-160, December 2007).

•         U.S. Government Accountability Office’s 8 “Contract Management: Guidance
          Needed for Using Performance-Based Service Contracting” (GAO-02-1049,
          September 2002).

•         Office of Management and Budget’s Office of Federal Procurement Policy’s
          “Performance-Based Service Acquisition” (July 2003).

•         Acquisition Advisory Panel’s “Report of the Acquisition Advisory Panel to the Office
          of Federal Procurement Policy and the United States Congress” (January 2007).

We did not evaluate the selected task orders to determine whether they were properly
identified as performance-based task orders. Instead, we relied on the determination
made by USAID’s contracting officials. Nor did we review other task orders to determine
whether they should have been performance-based.

We conducted this audit from November 5, 2007, through February 26, 2008.

Methodology
To answer the audit objective, we reviewed requirements in the Federal Acquisition
Regulation Subparts 37.6, 37.5, 4.8, and 46.4. We also reviewed relevant policies
issued by the Office of Management and Budget’s Office of Federal Procurement Policy.

We selected a judgmental sample of high-dollar-value task orders that were either active
at the time of fieldwork or closed within 3 months of the start of fieldwork. For each task
order, we reviewed performance work statements, quality assurance surveillance plans,
performance measures, and other documentation related to contractor performance. In
addition, to the extent possible, we interviewed contracting officers and cognizant
technical officers for each task order. (However, the two contracting officers who
awarded the task orders are no longer with USAID. One left prior to commencement of
the audit, and the other left shortly after audit fieldwork began. Also, the original
cognizant technical officers for some of the task orders are no longer with USAID.)

We did not establish a materiality threshold for this audit. Instead, we used auditor
judgment based on the evidence gathered.




8
    Formerly the U.S. General Accounting Office.


                                                                                           14
                                                                      APPENDIX II



MANAGEMENT COMMENTS


                                            April 11, 2008

MEMORANDUM

TO:                IG/A/ITSA, Melinda G. Dempsey

FROM:              M/CIO, David Anewalt /s/
                   M/OAA, Maureen A. Shauket /s/

SUBJECT:           Audit of Selected Performance-Based Task
                   Orders for Information Technology Services,
                   Report No. A-000-08-00X-P


Thank you for the opportunity to respond to the draft audit report. This memorandum
contains the management decision for the draft Audit of Selected Performance Based
Task orders for Information Technology Services, Report No. A-000-08-00X-P.

The following are the management decisions and corrective actions regarding the
proposed audit recommendation:

Recommendation No. 1 - We recommend that USAID’s Chief Information
Officer in collaboration with the Director, Office of Acquisition and Assistance,
establish a process to review the performance work statements for information
technology services before award to ensure that all elements have been included
in accordance with Federal Acquisition Regulation 37.6. At a minimum,
performance work statement must be reviewed to ensure (1) performance
requirements are clearly defined; (2) performance measures for quality, quantity,
and/or timeliness tie to key performance requirements; and (3) incentives and
disincentives are developed to the maximum possible and tie to performance
measure.



                                                                                  15
The Offices of the CIO and AA agree with the recommendation As a result of the
Inspector General’s audit, the CIO will review all new contracts to determine if
they are suitable for being designated as performance based. This decision will be
documented and filed in the “Determination and Finding” section of the contract
file. If a contract is designated as performance-based, the CIO will review each
contract to ensure (1) performance requirements are clearly defined; (2)
performance measures for quality, quantity, and/or timeliness tie to key
performance requirements; and (3) incentives and disincentives are developed to
the maximum extent possible and tie to performance measure. We will also
coordinate with M/OAA as needed to make the determination. We will also
provide CTOs written guidance and have a workshop on criteria for awarding
performance-based contracts, quality measures, and incentives. This will ensure
that CTOs receive adequate training and materials to augment their skills and to
ensure that they are operating in accordance with their responsibilities. We will
also put procedures in place to ensure that CTOs work more closely with the
contracting officers in creating templates and quality assurance surveillance plans
in advance of task order awards.

Please note that there are a number of tasks that are not suitable for performance-
based service contracting and thus will not be considered where it is not
practicable.

Target completion date: October 2008.

Recommendation No. 2 - We recommend that USAID’s Chief Information Officer
incorporate cognizant technical officer duties and responsibilities for monitoring
and evaluating contractor performance into performance work objectives,
including statements of performance expectations and results to be achieved, for
its cognizant technical officers.

The Offices of the CIO and AA agree with the recommendation. We will
implement the procedures to ensure that the supervisors incorporate CTO
responsibilities in the CIO CTOs annual performance plans and evaluations
beginning in calendar year 2008, as required by ADS Series 400 Interim Update
05-13, section 7(a) and (b).

Target completion date: June 2008

If you have questions or need additional information, please contact Tracy
Blackburn, M/CIO at 202-712-0816, or Steve Tashjian, M/OAA at 202-712-5321.

                                                                                  16
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
